December 22, 2008

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2008 SmartPay® Purchase Card Program
         (Report Number FF-AR-09-051)

This report presents the results of our audit of the SmartPay Purchase Card Program in
area offices for fiscal year (FY) 2008 (Project Number 08BD006FF000). We conducted
this work in support of the audit of the U.S. Postal Service’s financial statements. See
Appendix A for additional information about this audit.

Conclusion

Based on the items we reviewed, SmartPay purchase card transactions were generally
supported and complied with Postal Service policies and procedures. We examined
2,481 transactions totaling $2.3 million in all nine area offices and identified issues
regarding 346 transactions totaling $339,690 in seven of them. These issues were
related to inadequately documented justifications for working meals and various other
internal control and compliance issues. In addition, we identified issues with monthly
reconciliation procedures. In this report, we discuss two conditions that occurred most
frequently at area offices. See Appendix C for a summary of the issues identified for
each area.

We made recommendations to area managers addressing the findings at each area
office. Area management’s comments were responsive to our findings,
recommendations, and $305,858 in monetary and $98,926 in non-monetary impact.1
See Appendix B for the monetary and non-monetary amounts reported in each area.
The actions taken or planned should correct the issues identified at the area offices;
therefore, we are not making recommendations in this report. xxxxxxxxxxxx, xx xxxx
xxxxx xxxxxxxxx xx xxx xxxx xxxxxx xxxxxxx xxxxxx xx xxxxxxxxx xxxxxxx xxxxx xxxxxx
xx xxxxxxxxxxxxxx xxx xxxxxxxxxx xxxx xxxxxxxxx xxxxxxx xxxxxxxxxxx.


1
    We claimed monetary and non-monetary impacts in each individual site report.
Fiscal Year 2008 SmartPay Purchase Card Program                                           FF-AR-09-051



Business Necessity for Working Meals Not Documented

In seven areas, requisitions for working meals did not always document the business
necessity or benefit derived for continuing meetings through the meal time. Additionally,
in one area, the working meals did not receive Postal Career Executive Service (PCES)
level approval, as required.2 Employees generally stated this occurred because they
were not aware of or did not fully understand the requirements or neglected to obtain
the approval. When employees do not make purchases in accordance with
procurement policies, the Postal Service has an increased risk of incurring unauthorized
purchases or unnecessary expenses.

Monthly Reconciliation Procedures Were Not Followed

Cardholders and/or Credit Card Approving Officials (CCAO) did not always follow
purchase card reconciliation procedures. Specifically, in seven areas, purchase card
personnel did not properly reconcile 135 purchase card statements with transactions
totaling $416,158. Employees stated various reasons for not following the prescribed
procedures.

      •    CCAOs stated they had not timely received all the supporting documentation or
           statements from the cardholder (three areas).
      •    Cardholders stated they overlooked or forgot to perform the reconciliation (two
           areas).
      •    Cardholders were unaware or did not fully understand the requirements (two
           areas).
      •    Employees stated they did not always reconcile timely because either the
           cardholder or the CCAOs were out of the office for extended periods of time (one
           area).

Postal Service policy3 requires the cardholder and the CCAO to complete reconciliation
activities and certifying statements no later than the 18th of the month for the previous
month’s card activity. When employees do not follow purchase card procedures, there
is an increased risk the Postal Service could incur a loss without detection.

In November 2008, the Postal Service began implementing SmartPay2®. In
anticipation of SmartPay2, the Postal Service updated Handbook AS-709. The update
included a new requirement that all on-roll cardholders, CCAOs, and area program
coordinators complete refresher training prior to March 31, 2009. We believe the new
required refresher training for all purchase card employees will address the issues
identified. Therefore, we are not making recommendations in this report.




2
    Management Instruction (MI) FM-640-2008-1, Expenses for Internal and External Events.
3
    Handbook AS-709, Purchase Card Policies and Procedures for Local Buying, Section 411, September 2008.




                                                        2
Fiscal Year 2008 SmartPay Purchase Card Program                        FF-AR-09-051



Management’s Comments

Management agreed with our report’s conclusion that the two conditions which occur
most frequently with program compliance are documenting working meals and proper
monthly reconciliation. During FY 2008, management made several program
improvements and will continue efforts to address the issues in our report. We have
included management’s comments, in their entirety, in Appendix E.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the issues in our report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, Director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    H. Glen Walker
       Vincent H. DeVito, Jr.
       Stephen J. Nickerson
       Susan A. Witt
       Katherine S. Banks




                                                  3
Fiscal Year 2008 SmartPay Purchase Card Program                         FF-AR-09-051



                       APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In November 1991, the Postal Service joined the government-wide Commercial Credit
Card Program administered by the General Services Administration called SmartPay.
The program within the Postal Service is known as the SmartPay Purchase Card
Program, which Supply Management and Finance co-sponsor. In November 2008, the
Postal Service began transitioning to SmartPay2 and will replace all purchase cards.
The Postal Service pays no administrative fees for the card services and earns cash
refunds based on the aggregate volume of its transactions. There are no interest
penalties and the Postal Service pays all credit card charges with a single monthly
payment.

When eBuy or other consolidated finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures the Postal Service set in various manuals,
handbooks, MIs, and locally issued guidance. This guidance requires cardholders to
maintain documentation, including approved purchasing requests, sales and credit
drafts and receipts, and delivery documentation. In addition, guidance requires
cardholders to maintain documentation supporting the timely review of monthly
statements by cardholders and approving officials. In September 2008, the Postal
Service updated Handbook AS-709 and included new refresher training requirements
for cardholders, credit card approving officials, and area program coordinators. In
addition, the Postal Service issued MI FM-640-2008-1, which provides policies and
procedures for official business event-related expenses.

The five types of purchase cards are currently used to purchase:

   •   Expense items.
   •   Capital property.
   •   Vehicle parts at vehicle maintenance facilities.
   •   Inventory parts at the Topeka, Kansas, Material Distribution Center.
   •   Research and development equipment and supplies for Postal Service
       Engineering use.

We limited our audit to the expense purchase card transactions.




                                                  4
Fiscal Year 2008 SmartPay Purchase Card Program                         FF-AR-09-051



OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if SmartPay Purchase Card Program
purchases of expense items were supported and complied with Postal Service policies
and procedures. To accomplish this objective, we judgmentally selected a sample of
expense purchase card transactions for each Postal Service area using the Accounting
Data Mart. We selected the sample of area transactions based on risk factors such as
transactions that were either over $9,000, restricted, prohibited, made on the weekend,
or for purchases of pilferable items. Using these risk factors, we selected 2,481
transactions totaling $2.3 million made from July 2006 through July 2008 by 109
cardholders.

We conducted this financial audit from September 2007 through December 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require that we consider the results of previous engagements and follow
up on known significant findings and recommendations that directly relate to the
objective of the audit. An audit also includes obtaining a sufficient understanding of
internal controls to plan the audit and to determine the nature, timing, and extent of
audit procedures to be performed.

We supported the external auditors in obtaining reasonable assurance about whether
the financial statements are free of material misstatement (whether caused by error or
fraud). Absolute assurance is not attainable because of the nature of audit evidence
and the characteristics of fraud. Therefore, an audit conducted in accordance with
generally accepted government auditing standards may not detect a material
misstatement. However, the external auditors and the OIG are responsible for ensuring
that appropriate Postal Service officials are aware of any significant deficiencies that
come to our attention. We discussed our observations and conclusions with
management on November 13, 2008, and included their comments where appropriate.

We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
Accounting Data Mart and performed specific internal control and transaction tests on
this system’s data, including tracing selected purchase transactions to supporting
documentation. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. Finally, we
interviewed supervisors and employees and observed operations.

In addition to our area SmartPay audits, as part of the OIG’s continuous auditing efforts,
we conducted judgmental testing of SmartPay purchases in five Postal Service areas
and 55 districts from December 2007 through September 2008. See Appendix D for
additional details related to this work.




                                                  5
  Fiscal Year 2008 SmartPay Purchase Card Program                                FF-AR-09-051



  PRIOR AUDIT COVERAGE

                                      Final                        Non-
                     Report          Report         Monetary     Monetary
 Report Title        Number           Date           Impact       Impact          Report Results
SmartPay           FT-AR-07-014    9/29/2007         $127,393     $133,458    The Postal Service did not
Purchase Card                                                                 always maintain adequate
Use By Postal                                                                 purchase documentation
Service Officers                                                              or use the purchase card
                                                                              for authorized purposes.
                                                                              We made five
                                                                              recommendations.
                                                                              Although management did
                                                                              not agree with two of the
                                                                              recommendations, they
                                                                              agreed with the intent of
                                                                              all five recommendations
                                                                              and took corrective action.
National Review    CA-AR-08-002    11/8/2007         $244,626     $177,183    The audit disclosed
of SmartPay                                                                   weaknesses in internal
Purchase Card                                                                 controls over purchases.
Transactions                                                                  Of 355 transactions made
                                                                              by 138 cardholders, 79
                                                                              transactions made by 42
                                                                              cardholders were not
                                                                              supported or allowable.
                                                                              We made five
                                                                              recommendations.
                                                                              Management agreed with
                                                                              the recommendations and
                                                                              implemented corrective
                                                                              action.
Fiscal Year        FF-AR-08-094    2/4/2008         $1,203,832   $2,626,223   This report summarized
2007 SmartPay                                                                 various internal control
Purchase Card                                                                 and compliance issues
Program                                                                       related to reconciliations
                                                                              of purchase card
                                                                              statements and
                                                                              unapproved, unsupported,
                                                                              and unauthorized
                                                                              purchases. Because we
                                                                              made recommendations
                                                                              in the individual reports
                                                                              summarized in this report,
                                                                              we did not make any
                                                                              additional
                                                                              recommendations.




                                                     6
 Fiscal Year 2008 SmartPay Purchase Card Program                                             FF-AR-09-051



     APPENDIX B: AREA SMARTPAY PURCHASE CARD PROGRAMS AUDITED AND
                        REPORTS ISSUED NATIONWIDE
                                          Report             Final Report          Monetary       Non-Monetary
       Report Title                       Number                 Date               Impact4          Impact
Fiscal Year 2008
Southwest Area
                                     FF-AR-08-072                1/11/08                $63,511                 $0
SmartPay Purchase
Card Program
Fiscal Year 2008 Capital
Metro Area SmartPay                  FF-AR-08-270                8/22/08                    $0                  $0
Purchase Card Program
Fiscal Year 2008
Southeast Area
                                     FF-AR-08-279                 9/8/08                    $0                  $0
SmartPay Purchase
Card Program
Fiscal Year 2008 Pacific
Area SmartPay                        FF-AR-08-281                9/12/08                $20,215              $3,360
Purchase Card Program
Fiscal Year 2008
Western Area SmartPay                FF-AR-08-286                9/25/08                $57,712                 $0
Purchase Card Program
Fiscal Year 2008 Great
Lakes Area SmartPay                  FF-AR-08-287                9/26/08                $38,412             $37,808
Purchase Card Program
Fiscal Year 2008
Eastern Area SmartPay                FF-AR-09-002                10/21/08               $26,745              $9,826
Purchase Card Program
Fiscal Year 2008
Northeast Area
                                     FF-AR-09-001                10/22/08               $36,263             $13,481
SmartPay Purchase
Card Program
Fiscal Year 2008 New
York Metro Area
                                     FF-AR-09-028                11/28/08               $63,000             $34,451
SmartPay Purchase
Card Program




 4
     The individual reports identified the type of monetary and non-monetary impacts.




                                                             7
 Fiscal Year 2008 SmartPay Purchase Card Program                                               FF-AR-09-051



     APPENDIX C: FINDINGS REPORTED FOR AREA SMARTPAY PURCHASE CARD
                            PROGRAMS AUDITED

                                          Number
                                          of Areas                                Number of                Value of
                                            with            Number of            Transactions/          Transactions/
Findings                                  Findings         Cardholders            Statements             Statements
Most Frequent Issues:
Requisitions for working
meals did not state the
business necessity for                          7                 41                    214                    $236,912
continuing a meeting through
the meal period and/or were
not properly approved.
Monthly reconciliation
procedures were not
followed.5                                      7                 41                    135                    $416,158
Cardholders and/or
approving officials did not:
    • Reconcile monthly
       purchase card                            4                  16                    58                        $251,072
       statements timely.
    • Certify and/or date
       monthly purchase                         3                  13                    46                        $104,796
       card statements.
    • Properly reconcile or
       provide all receipts to                  3                  12                    31                         $60,290
       support purchase card
       transactions.
Other Issues:
Cardholders:
Did not seek or receive sales
tax exemptions on                               2                  7                     23                         $2,463
purchases.
Made purchases from a non-
contract vendor when a
national contract was in
place or from an                                2                  8                     50                        $15,892
unauthorized vendor for
Postal Service-licensed
merchandise.


 5
   Monthly reconciliation procedure totals are not transactions but relate to the number and value of statements
 reviewed.




                                                           8
 Fiscal Year 2008 SmartPay Purchase Card Program                           FF-AR-09-051



                                    Number
                                    of Areas                      Number of          Value of
                                      with          Number of    Transactions/    Transactions/
Findings                            Findings       Cardholders    Statements       Statements
Made purchases that
exceeded $10,000 from a
single vendor without                   2              2              24                  $66,201
seeking a formal contract or
deviation.
Requisitioned 16
professional baseball play-off
tickets without providing the           1              1              2                    $5,628
business need to support the
purchase.
Purchased alcohol based on
an officer improperly
delegating his eBuy System
                                        1              2              5                    $1,808
authority to purchase alcohol
to another manager who then
authorized the purchase.
Made prohibited purchases
that included gifts
(graduation and retirement),
a holiday celebration,                  1              8              22                   $6,731
greeting cards (birthday,
thank you, and sympathy),
and breakfast meals.
Did not maintain purchase
card Accountability                     1              8             N/A                     N/A
Acknowledgement forms.
Did not enter issued gift
cards into the eAwards                  2              4              6                    $4,055
System.




                                                   9
Fiscal Year 2008 SmartPay Purchase Card Program                            FF-AR-09-051



                  APPENDIX D: SMARTPAY CONTINUOUS AUDITING

As part of the OIG’s continuous auditing efforts, we conducted testing of SmartPay
purchases from five Postal Service areas and 55 districts from December 2007 through
September 2008. To conduct our testing, we judgmentally selected 513 transactions
representing $1.7 million in expenses from 148 cardholders based on risk factors that
included purchase amount and Standardized Industry Classification Codes.

We requested supporting documentation, including invoices, approved purchase
requests, receipts and delivery documentation, declining balance logs for bulk funded
items, credit card logs, bank statements, and written justification for the purchases. We
analyzed the supporting documentation and made referrals to the OIG’s Office of
Investigations as deemed necessary.

Overall, our judgmental testing identified issues very similar to the results identified in
our area SmartPay audit work summarized in this report. Specifically, our continuous
auditing efforts identified questions and concerns related to purchases that were:

   •   Not supported with bona fide receipts.
   •   Not properly authorized.
   •   Not supported with the identification of the business need for working meals.
   •   For prohibited items.
   •   Split to remain under the $10,000 spending limit.
   •   Made and approved by the same person.

In addition, we identified reconciliation issues in which cardholders/approving officials
did not sign and date the monthly bank statements.

Since the issues have been sufficiently identified and addressed in the area financial
audits, we are not including any additional recommendations in this report. However,
we will continue to audit SmartPay purchases in FY 2009, to include purchases
associated with events and restricted and prohibited items.




                                                  10
Fiscal Year 2008 SmartPay Purchase Card Program           FF-AR-09-051



                      APPENDIX E: MANAGEMENT’S COMMENTS




                                                  11
Fiscal Year 2008 SmartPay Purchase Card Program        FF-AR-09-051




                                                  12
